               Peace Corps
               Office of Inspector General




Peace Corps office in Dakar, Senegal        Fishing boat, Saint Louis, Senegal




                                 Flag of Senegal




                    Follow-up Audit Report:
                     Peace Corps/Senegal
                         IG-09-11-FUA

                                                                     July 2009
Follow-up Audit Report:
  Peace Corps/Senegal
     IG-09-11-FUA




____________________________________
          Gerald P. Montoya
Assistant Inspector General for Audits




             July 2009
                                                            Table of Contents

INTRODUCTION .............................................................................................................. 1

SUMMARY OF FINDINGS .............................................................................................. 1

FOLLOW-UP AUDIT RESULTS...................................................................................... 3

VOLUNTEER ALLOWANCES ............................................................................................................................. 3

BILLINGS AND COLLECTIONS .......................................................................................................................... 4

IMPREST FUND MANAGEMENT ........................................................................................................................ 5

HOST COUNTRY IN-KIND CONTRIBUTIONS ..................................................................................................... 9

PROPERTY MANAGEMENT ............................................................................................................................... 9

VEHICLE MANAGEMENT ............................................................................................................................... 11

CONTRACTS .................................................................................................................................................. 12

PERSONNEL MANAGEMENT ........................................................................................................................... 15

INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES (ICASS) .......................................... 16


OTHER MATTERS.......................................................................................................... 17

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 20

AUDIT COMPLETION AND OIG CONTACT.............................................................. 21
                                       INTRODUCTION

The Office of Inspector General conducted an audit of Peace Corps/Senegal October 25 –
November 10, 2006 and issued our report in September 2007. Management concurred
with 18 of the 21 audit recommendations in the audit report, partially concurred with two
recommendations, and did not concur with one recommendation. Based on
management’s responses, we closed three recommendations with the report’s issuance.
Eighteen audit recommendations were left open pending action to be taken and were
subsequently closed by the agency’s chief compliance officer.

As part of our continuing oversight responsibilities, we conducted a follow-up audit April
27 – May 6, 2009 to verify the status of the 21 audit recommendations included in our
September 2007 report.

Appendix A provides a description of our follow-up audit objective, scope, and
methodology.

The Peace Corps began its program in Senegal in 1963. At the time of our visit, 134
Volunteers were working in seven program areas: sustainable agriculture, urban
agriculture, agroforestry, environmental education, ecotourism, preventive health
education, and small enterprise development.

The post had, at the time of our visit, 34 staff: four U.S. direct hires (including the area
Peace Corps medical officer), four foreign service nationals, and 26 personal services
contractors. The administrative officer arrived at the post in March 2009. From
September 2008 to March 2009, the post functioned with a temporary duty (TDY)
administrative officer.



                               SUMMARY OF FINDINGS

During our follow-up audit, we verified that appropriate action had been taken on 14 of
the 21 audit recommendations. We determined that seven recommendations, numbers 2,
4, 9, 10, 11, 14, and 17, required additional action, and we reopened them. Following our
visit, the post provided us with documentation showing that it had subsequently taken the
appropriate additional actions on six recommendations, and accordingly, we have closed
them. Recommendation number 14 remains open pending the completion of the required
action and confirmation from the chief compliance officer.

A summary of the status of the audit recommendations as the result of our follow-up
audit is shown in Table 1 below, followed by the results of our verification of each
recommendation.



Follow-up Audit Report: Peace Corps/Senegal                                                    1
  Table 1. Status of Audit Recommendations as the Result of our Follow-up Audit
                                                    Number of                     Open
                             Number of
       Audit Area                                Recommendations             Recommendation
                          Recommendations
                                                     Closed *                    Number
       Volunteer
                                    1                      1
       Allowances
      Billings and
                                    1                      1
      Collections
     Imprest Fund
                                    5                      5
     Management
     Host Country
       In-Kind                      1                      1
     Contributions
       Property
                                    2                      2
      Management
        Vehicle
                                    2                      2
      Management
        Contracts                   4                      3                         14
       Personnel
                                    4                      4
      Management
         ICASS                      1                      1
          Total                     21                    20                          1

  * Includes six recommendations reopened during the follow-up audit and subsequently closed as the
    result of additional action taken by the post.




Follow-up Audit Report: Peace Corps/Senegal                                                           2
                          FOLLOW-UP AUDIT RESULTS

Each item below includes the recommendation, management’s response, and the results
of our verification.


VOLUNTEER ALLOWANCES

1. That the post ensure that termination notifications are sent within 24 hours. This
   may be achieved by reassigning this responsibility to the APCD or the
   administrative officer in conjunction with other Volunteer termination procedures.

Management’s Response: Partially Concur.
Since November 2006, Post has sent in all cables within 24-business hours or prior to a
PCV’s COS date. Post’s Executive Secretary has been responsible for sending cables,
monitored by the AO, CD, or Acting CD. Post has clarified with Director of Volunteer
and PSC Services, that the Overseas Financial Management Handbook is currently
incorrect and that cables should be submitted within 24-business hours. [see Appendix
A]. The Country Desk Unit met with the Chief Compliance Officer and Assistant
Inspector General for Audits on July 20, 2007 regarding correction of the
recommendation in the IG’s Preliminary Report to accurately reflect ‘24 business hours’
vs. 24 hours. Please also note that State-Side ETs and Medical Separations cables are sent
directly from OSS to VPS. Post cannot send these cables until OSS notification is
received, which is often after the PCV’s end date. Due to the high volume of travel and
workloads of APCDs and AOs, the transference of duties for cable issuance would result
in less efficient cable submission. Support staff is available to continue sending and
tracking ET cables and has continued this process for almost a year, with monitoring by
the AO, CD or Acting CD. Post also currently has a system in place whereby the
Executive Secretary, the primary point of contact for cable submission, has a support
back-up by the HR Specialist should the Executive Assistant be out of the office.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We examined 20 email notifications to headquarters for Volunteers terminating their
service during the period April 1, 2008 – March 31, 2009. We found that all had been
sent within 24 hours of the close-of-service or early termination date as required. In one
case, the Volunteer terminated service on a Friday, and the email notification was sent
the following Monday.




Follow-up Audit Report: Peace Corps/Senegal                                                  3
BILLINGS AND COLLECTIONS

2. That the post and the region ensure that all outstanding debts are collected.

Management’s Response: Concur.
The two outstanding debts referenced in the IG’s Preliminary Report were outside of
standard PC/Senegal operations and had occurred before the arrival of the current
Administrative Officer. The first debt involved excess weight of Post’s former AO’s
shipment of household effects. This debt and collection responsibility has been
transferred to the Department of the Treasury. The second collection also involved excess
HHE weight for a PSC that was evacuated from PC/Côte d’Ivoire. The Africa Region
will continue following up on this issue. Since November 2006, Post has and will
continue to ensure all outstanding debts are collected. Regarding the first referenced bill
of collection, PC/Senegal and the Africa Region are no longer directly affiliated with the
outstanding bill from the former AO at Post. The Africa Region sought payment via
email in July 2006. With no response, the debt was then passed on to the Office of
Accounts Receivable & Cash Management (OARCM). In an email dated March
26, 2007, OARCM Claims Officer explains that the debt was referred to the Department
of Treasury, after two repeated attempts to collect the debt. She notes, that “Treasury is
now solely responsible for the collection of [the former AO’s] debt and will send us any
payments they collect from him. To date, I have not received any payments.” The FMO
in Global Accounts Payable forwarded an IG Senior Criminal Investigator this
information via email after a request was made for information on this collection [see
Appendix C]. No additional information from the Senior Criminal Investigator has been
provided for further AF Region or Post action.

The second outstanding debt referenced is a collection from a former PSC Rover AO
based out of Abidjan whose shipping weight charges, related to the evacuation of
PC/Côte d’Ivoire, were over standard weight requirements. Post has no records on this
collection other than a photocopy of a one page bill of collection that was presented to
Post’s AO by a member of the Audit Team during the audit. According to all staff at
Post, this collection was managed directly with the former AO and the Africa Region.
There are no records in the standard collections files in PC/Senegal. This issue is under
review by the Africa Region and follow up is ongoing with different offices at HQ.

Completion Date: September 30, 2007.

OIG Verification: Recommendation reopened; subsequently closed as the result of
additional action taken by the post.
We obtained an email dated September 26, 2008 from the Claims Officer of the Office of
Accounts Receivable and Cash Management at the Peace Corps. The email stated that
the Acting Chief Financial Officer approved the request to write off the two uncollectible
bills. Accordingly, we have closed this recommendation.




Follow-up Audit Report: Peace Corps/Senegal                                                 4
IMPREST FUND MANAGEMENT

3. That the post delegate sub-cashier duties in accordance with Peace Corps policy.

Management’s Response: Concur.
PC/Senegal is currently in compliance with delegating sub-cashier duties in accordance
with PC policy. The Overseas Acquisition Deskbook, specifically the Personal Service
Contract section, provides for PSCs to carry cash or allowances. Post’s PST
Administrative Assistant serves in this capacity. She sends in the known upcoming
expenses for IST and PST for the next following 5 business days. The AO then approves
an advance totaling that exact amount. The advance is then used to pay off the vendors
for the expenses and is cleared in five business days. PC/Senegal's training site is located
three hours from Dakar. Please note that Post has made significant efforts to greatly
reduce cash expenditures at the training site, including processing all PCV PST-related
travel payments via IFO and the PCVs’ bank, Credit Agricole, using Dakar vendors who
receive checks for supplies purchased formerly in cash, and converting six vendors to
check payment who were previously cash vendors. It is envisioned that Post will
continue to minimize the cash expenditures at our training site and have minimal
expenses in cash for future ISTs and PSTs. These expenses would include walk-around
allowance payments, host family payments, emergencies and small cash vendors only.
Post has integrated the Cash Handling text into PSCs contract.

Completion Date: Completed.

OIG Verification: Recommendation closed.
The post does not have sub-cashiers. Accordingly, we have closed this recommendation.


4. That the post implement a separation of duties in the receipt, calculation, deposit,
   and disbursement of Volunteer allowances.

Management’s Response: Partially concur.
Post believes that sufficient separations of duties are currently in place. Post’s
Administrative Roles are as follows:
•   The Cashier handles the Excel spreadsheet preparations for allowances as this is an
    intense exercise and can often take days to reference different resources including
    VIDA, ETs, and other factors.
•   The Living Allowance spreadsheet is reviewed electronically as well as on paper
    prior to approval by the Administrative Officer.
•   The Financial Assistant then enters the liquidation into ForPost (The Cashier does not
    handle this responsibility).
•   When the check arrives, the Cashier makes a copy of the spreadsheet for the bank
    outlining the funds that go into each account.


Follow-up Audit Report: Peace Corps/Senegal                                                5
•   The Administrative Officer creates and signs an authorization letter and instructions
    for the bank to take action. Approval is provided after validation against original
    documents sent to HQ for the allowance payment.
•   The check and authorization letter are then deposited by a driver. If there is an issue
    with the deposit or questions on bank account or other issues, the bank has to come to
    the Cashier or the Administrative Officer. Additionally, Post is implementing, with
    Credite Agricole bank, the MOU now required by IFO that no cash or check in the
    name of a Peace Corps PSC can be issued for PCV accounts. A check must be issued
    in the name of USDO that is then deposited to Ecobank in Dakar. Please note that
    Post’s closure of bank accounts only occurs in the case of state-side ET or Medical
    Separation of PCVs with the presentation of a Power of Attorney signed by the PCV.
    All other accounts are closed prior to PCV departing the country as part of the
    standard operating procedures of Close of Service.

Completion Date: Completed.

OIG Verification: Recommendation reopened; subsequently closed as the result of
additional action taken by the post.
The administrative officer issued a memo to the Peace Corps/Senegal staff dated April
21, 2009 and entitled “Calculation of Volunteer Allowances and Reimbursements.” The
memo stated: “In efforts to comply with the General Accountability Office standards
regarding segregation of duties, the Financial Assistant will be responsible for all
calculations related to volunteer allowances and reimbursements. The second financial
assistant will verify the calculations, which will then be reviewed by the administrative
officer. The cashier will remain responsible for coordinating banking transactions and
ensuring proper payments and collections against the payment.” The memo also stated
that the statements of work of the cashier and the financial assistant would be modified to
reflect the change in responsibilities.

We obtained the calculation of Volunteer living allowances for the period June – August
2009, and noted that it had been prepared by the financial assistant rather than the
cashier. We also obtained the current statements of work of the cashier and the financial
assistant. We noted that it did not have the newly-assigned responsibilities for Volunteer
calculations thereon.

Beginning in January 2009, the post has received its Volunteer living allowances by
electronic funds transfer (EFT) directly into a pass-through bank account set up for this
purpose. Accordingly, the cashier no longer receives checks for deposit in the bank and
transfer into the Volunteers’ accounts.

Subsequent to our visit, the administrative officer sent us updated statements of work for
the cashier, the financial assistant, and the second financial assistant/collections manager
reflecting segregation of duties. Accordingly, we have closed this recommendation.



Follow-up Audit Report: Peace Corps/Senegal                                                 6
5. That the post follow Peace Corps policy and not use appropriated funds for
   counterpart training costs.

Management’s Response: Do Not Concur.
Post does follow PC policy and is already in compliance with use of appropriated funds
for counterpart training costs. Since the October 2006 IG Audit, all counterpart costs
have been justified with appropriate justifications from memo's dating back to 1999 from
Headquarters on appropriate use of funding for host country nationals. All submissions
have been approved by IFO. Prior to that time, only non-PST Counterpart costs had
additional justifying documentation as AOs had been informed during OST that PST
counterpart expenses are 'grandfathered' in and no justification is necessary. Post uses the
two memos from 1999 (from Thomas Tighe, Chief of Staff and Ruth Ramsey, Associate
General Counsel) as justification along with memos explaining specific factors of the
incurred expense and how it meets the criteria to submit relevant vouchers to IFO.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We discussed the attendance by counterparts at training events with the administrative
officer and financial assistant. The administrative officer told us that counterparts
attended only pre-service training (PST) events held in conjunction with a trainee
training event. He further told us that the post adheres to agency guidelines that
counterparts attend training only if their attendance is an integral part of the training and
enhances the ability of the trainees to perform their work at their future sites. We
reviewed documentation for two PST training events, which confirmed the statements of
the administrative officer.


6. That the country director ensure that an unannounced, monthly verification of the
   imprest fund be conducted. Additional verifications should be conducted annually
   by a qualified, external U.S. government employee, quarterly by the country
   director, and in the remaining months it may be delegated to the administrative
   officer.

Management’s Response: Concur.
Monthly verifications have been completed by the AO since June of 2005 except for one
month when the AO was on maternity leave and Post was under TDY coverage. The new
CD arrives at Post in September and will be briefed on the importance of this quarterly
verification. The Acting CD performed the cash count in June 2007. External counts were
performed by a Paris FSC Africa Representative in June of 2006 and March of 2007.
Post's Cashier has created a spreadsheet to outline who does the cash counts each month
and is also putting a ticker in the Administrative Calendar for the month that CD will be
required to do the cash count.

Completion Date: Completed.



Follow-up Audit Report: Peace Corps/Senegal                                                 7
OIG Verification: Recommendation closed.
We reviewed the file of imprest fund verifications for fiscal year 2008 and fiscal year
2009 through April 30, 2009. We found that the country director did not perform a
verification during the seven month period June 26, 2008 – January 30, 2009.

In addition, we determined that two verifications by the TDY administrative officer on
December 15, 2008 and January 6, 2009 were not unannounced and were not appropriate
verifications. The two verifications were used in conjunction with the transfer of the
imprest fund from the cashier, who was going on vacation, to the financial assistant, the
alternate cashier, and back again upon the cashier’s return. The cashier signed on the
“signature of verifying officer” line on the December 15, 2008 reconciliation. The
financial assistant, who in accordance with PCM section 760.7.1 (f), may not perform
imprest verifications, signed on the “signature of verifying officer” line on the January 6,
2009 reconciliation. The TDY administrative officer signed next to the cashier’s
signature on the December 15, 2008 reconciliation, and initialed in the lower right corner
on the January 6, 2009 reconciliation.

We were informed that the TDY administrative officer requested that the cashier and the
financial assistant first agree on the amount of the fund balance being transferred before
the TDY administrative officer became involved. In response to our request for
clarification, the TDY administrative officer stated: “From what I remember, the
verifications were done, although I can’t remember the actual circumstances at this
point….”

The country director or acting country director has, since January 30, 2009, performed
quarterly imprest fund verifications as required, and the administrative officer has
performed proper verifications in the intervening months. Accordingly, we are closing
this recommendation.


7. That the post obtain current signature cards for personnel authorized to approve
   expenditures.

Management’s Response: Concur.
Signature cards are currently on file in the cashier's office.

Completion Date: Completed

OIG Verification: Recommendation closed.
We reviewed the signature cards on file in the cashier’s office and found them to be
current.




Follow-up Audit Report: Peace Corps/Senegal                                                  8
HOST COUNTRY IN-KIND CONTRIBUTIONS

8. That the post document the basis used to estimate all host country contributions.
   PCM section 722.7.2.1 provides guidance for preparing estimated values.

Management’s Response: Concur.
A memo to the file was created for HCC In-Kind calculations. This memo will be
updated annually and/or quarterly when necessary at Ops Plan submission and/or when
quarterly HCC reports are submitted to the OCFO.

Completion Date: Completed.



OIG Verification: Recommendation closed.
We discussed the post’s valuation process with the financial assistant. Every year, before
submission of the operating plan, he prepares an analysis of in-kind host country
contributions, including the basis used to estimate their valuations. We obtained and
reviewed his memo “Costs Determinations for Host Country In-Kind Contributions”
dated August 4, 2008, with copies to the country director and the administrative officer,
that enumerated the various in-kind contributions and the valuation basis used.


PROPERTY MANAGEMENT

9. That the GSO update the post’s inventory records after completing a physical
   inventory of all property.

Management’s Response: Concur.
Post hired a Special Projects Assistant (from December 2006 – May 2007), who worked
for three months (March - May 2007) to completely update the inventory system. Post
believes the current inventory and systems in place are accurate. Post is requesting
additional staffing for the GSO team as part of the 2008 Ops Plan submission, which
would greatly help Post to be able to maintain the necessary systems needed to track and
maintain Post’s almost 3,000-item inventory.

Completion Date: Completed.

OIG Verification: Recommendation reopened; subsequently closed as the result of
additional action taken by the post.
The post’s last physical inventory was completed September 2008. The property
manager told us that the inventory listing was updated for changes on an ongoing basis.

To test the inventory listing, we selected 12 items from the listing for tracing to the actual
property in the office and were able to locate all the property items selected.



Follow-up Audit Report: Peace Corps/Senegal                                                 9
We selected 10 property items in the office for tracing to the inventory listing. Two
items, a computer central processing unit and a router, were not on the inventory listing,
but instead were on a separate IT listing. However, other IT items were on the inventory
listing.

In order to have a complete record of all inventory in one file, we suggested and the
property manager concurred that all IT items be included on the post’s inventory listing.

Subsequent to our visit, the administrative officer confirmed to us that the inventory
listing now included all IT items. Accordingly, we are closing this recommendation.


10. That the post develop and implement a systematic approach for maintaining an
    updated inventory record, including a process to record property being moved from
    one location to another and retaining disposal documents.

Management’s Response: Concur.
Post hired a Special Projects Assistant who worked for three months (March - May 2007)
to completely update the inventory system. Post adheres to policies outlined in PC MS
511 (Property Management at Overseas Posts) and believes that the current inventory and
systems in place are accurate. Post is requesting additional staffing for the GSO team as
part of the 2008 Ops Plan submission, which would greatly help Post to be able to
maintain the necessary systems needed to track and maintain the inventory of Post’s
almost 3,000 items.

Completion Date: Completed.

OIG Verification: Recommendation reopened; subsequently closed as the result of
additional action taken by the post.
The post developed a procedure for maintaining the inventory records. The procedure,
issued April 21, 2009 by the administrative officer, covered acquisitions of property and
transfers of property between locations. In conjunction with the policy, the post created a
“Non-expendable Property Transaction form” to control acquisitions and transfers.

The post did not obtain custody receipts for Peace Corps property maintained in the
residences of the U.S. direct hire staff, as required by PCM section 511.6.2.2. Custody
receipts document the staff’s possession of agency property and their accountability to
maintain and return it. The administrative officer told us that he intended to obtain
custody receipts and place them in the administrative files.

Subsequent to our visit, the administrative officer informed us that the post had issued
custody receipts for Peace Corps property in the residences of the U.S. direct hire staff
and sent us several examples. Accordingly, we have closed this recommendation.




Follow-up Audit Report: Peace Corps/Senegal                                                 10
VEHICLE MANAGEMENT

11. That the GSO maintain the vehicle usage log in accordance with Peace Corps
    policy.

Management’s Response: Concur.
Since November of 2006, the GSO began weekly reviews of the vehicle logs rather than
monthly reviews. All drivers were given further guidance to avoid confusion between
date formats of American and French formats for entering the dates on the vehicle log. In
July 2007, the Administrative Officer performed a thorough review of the policy manual
with the Motor Pool Coordinator and ensured that all aspects of vehicle logs were clear
and implemented at Post. Post’s GSO will be retiring in January. Policy manual reviews
will be part of the new GSO’s training.

Completion Date: Completed.

OIG Verification: Recommendation reopened; subsequently closed as the result of
additional action taken by the post.
PCM section 527.5.4 requires that the administrative officer, the staff member
responsible for initiating vehicle repairs or maintaining the vehicle records, and the staff
member responsible for billing authorized, non-official vehicle use review, initial, and
date the vehicle usage logs weekly.

We reviewed the vehicle usage logs maintained by the motor pool coordinator to
determine if the required reviews were performed and documented.

We found that, for the most part, vehicle usage logs were initialed and dated signifying
review by the general services manager, the billings officer, and the administrative
officer. However, we noted logs which were reviewed by either the general services
manager or the country director, or were not reviewed at all.

Subsequent to our visit, the administrative officer sent us several vehicle usage logs that
showed that they were initialed and dated as reviewed by the responsible persons. He
also told us that vehicle usage logs for vehicles in travel status would be reviewed
immediately upon their return from trips. Accordingly, we are closing this
recommendation.


12. That the GSO maintain the vehicle maintenance records in accordance with Peace
    Corps policy.

Management’s Response: Concur.
Post currently has a Special Projects Assistant who is on contract through December
2007. She will be working on this project during the month of September and October.




Follow-up Audit Report: Peace Corps/Senegal                                                11
Post’s GSO will be retiring in January. Policy manual reviews will be part of the new
GSO’s training.

Completion Date: October 2007.

OIG Verification: Recommendation closed.
We reviewed the vehicle maintenance records kept by the motor pool coordinator.
Records were organized by vehicle, including a listing of maintenance by month and
receipts for the outside servicing of the vehicles.


CONTRACTS

13. That the post conduct and document a market survey for new leases awarded
    without competition.

Management’s Response: Concur.
All leases in Senegal are validated through a market survey with local real estate agents
and the Embassy, who manages over 100 properties in Dakar. Unfortunately, Post has not
documented this in the past. Leases entered into since November 2006 have been
documented in the file as per the new formats provided by OBO with pictures and history
of lease procurement.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We reviewed the supporting documentation maintained by the financial assistant for two
leases showing that the post had conducted market surveys for these leases. A memo,
entitled “Competition Factors,” was prepared by the former administrative officer for
each of the leases describing the nature and the results of the surveys.


14. That the post review all PSC files and ensure that the files contain all the necessary
    information in accordance with Peace Corps policy.

Management’s Response: Concur.
Post completed a thorough review of PSC files with the Special Projects Assistant who
revised all PSC files in December 2006. All files now contain all necessary information
with the exception of missing recruiting information and other such documents that
cannot be recreated or traced in the office. Post will add a memo in any PSC file where
such recruiting information files are no longer retrievable.

Completion Date: November 2007.




Follow-up Audit Report: Peace Corps/Senegal                                             12
OIG Verification: Recommendation reopened.
We selected five PSC files and reviewed them for completeness. We found that one file
was missing a security clearance and two files were missing five-year security updates.
We also found that two files were missing intelligence background information
certifications and that one certification was signed but not dated. The post, at our
request, determined that 12 PSC files were missing five-year security updates.

One of the PSCs missing security updates was the safety and security coordinator.
Following our visit, the post requested and received confirmation that the “RSO cleared
him for USG employment.”

In addition, of the five files reviewed, only the Peace Corps medical contractor’s file
contained a current performance appraisal. Two PSCs had not been evaluated since
November 2005 and November 2006, respectively. The administrative officer told us
that the post recognized this deficiency and that post management was in the process of
preparing performance appraisals for the staff.

We also found deficiencies in the preparation of PSC contracts. While the normal work
week for all staff except drivers was 40 hours, all contracts reviewed except one
indicated a work week of 48 hours. Also, for one contract, the wrong box, “new
contract,” instead of “an option,” was marked.

Further, the option periods in several contracts were incorrect. For one contract, the first
option period was identical to the current contract period. For another contract, the
PSC’s employment start date was March 30, 2008; however, the first option period in the
contract incorrectly showed January 6, 2007 – January 5, 2008.

Finally, two of the five PSC files did not contain signed contractor release forms upon the
issuance of new contracts.

This recommendation will remain open pending submission to the chief compliance
officer of a correctly prepared PSC contract and confirmation from the administrative
officer that all required documents, including security clearance updates and current
personnel appraisals, are completed and included in the PSC files.


15. That the approving official approve purchases before they are made with the
    purchase card.

Management’s Response: Concur.
Request for approval for all intended purchases are sent by email to the CD by the AO.
Post is documenting the approval correspondence between the AO and CD, or Acting
CD. A new Country Director arrives in Senegal in mid-September. He will be briefed on
this importance process. The incoming CD also received initial administrative training
during the summer Overseas Staff Training (OST) in early June 2007 including the



Follow-up Audit Report: Peace Corps/Senegal                                               13
following sessions: Administrative & Financial Management, Federal Budget Process,
Payables Do’s & Don’ts, Post Budget & Financial Ops, etc.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We discussed the post’s purchase card procedures with the administrative officer and the
financial assistant. The financial assistant has held the purchase card since December
2008, with the administrative officer as the approving official. We selected two recent
purchases made with the card and reviewed the process and supporting documentation
for completeness. We found that in both cases, the approving official approved the
purchases before they were made.


16. That the post obligate funds before approved purchases are made with the purchase
    card.

Management’s Response: Concur.
Post now orders approved purchases after funds have been obligated.
• For internet purchases, the products are put into the on-line vendor's ‘shopping cart’.
• This is then printed and used for the best estimate of total costs for the obligation.
   Taxes and shipping are estimated as they are unattainable until final checkout.
• The Financial Assistant then uses the ‘shopping cart’ print-out as an obligating
   document. The Administrative Officer approves the obligation.
• Upon approval of the obligation, the AO requests approval of the purchase card order
   with the Country Director by email with a copy of the ‘shopping cart’ form attached
   and the form is also submitted for approval in hard copy form.
• Once approval is received, the Administrative Officer then re-enters into the vendor's
   website and retrieves the ‘shopping cart’ and makes the purchase on the Government
   Purchase Card.
• When the purchase card is used as method of payment, documentation follows
   standard procurement guidelines. When products are received, the vendor is provided
   with purchase card information after the CD has approved the purchase card charge
   via email or hard copy.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We verified that purchases made with the purchase card were obligated before the
purchases were made and that they were first approved by the administrative officer, who
is the approving official.




Follow-up Audit Report: Peace Corps/Senegal                                            14
PERSONNEL MANAGEMENT

17. That the post develop a written policy for earning, tracking, and using
    compensatory time.

Management’s Response: Concur.
A Post compensatory time policy was drafted by Post’s HR Specialist in July 2007 and is
currently under review by the AO. The incoming CD will be able to review and approve
the policy upon arrival in mid-September 2007.

Completion Date: October 2007.

OIG Verification: Recommendation reopened; subsequently closed as the result of
additional action taken by the post.
The post developed a policy for earning, tracking, and using compensatory time. The
policy was issued May 20, 2008 by the country director. It provided for a maximum of
40 hours of compensatory time, with the accrued hours to be used during a six month
period (a two month period for drivers). According to the timekeeper, the policy was
changed in July 2008 so that the maximum accrual was 24 hours. However, a revised
policy was not issued to the staff.

Subsequent to our visit, the administrative officer sent us a copy of the post’s updated
policy for compensatory time, dated May 18, 2009, indicating a maximum accrual of 24
hours, in line with post practice. Accordingly, we have closed this recommendation.


18. That the timekeeper track compensation time.

Management’s Response: Concur.
Compensation time is currently tracked on the PC-57s. Post’s Special Projects Assistant
included this in the Time and Attendance clean-up in January to February 2007.

Completion Date: Completed

OIG Verification: Recommendation closed.
We found that the timekeeper was tracking compensatory time on the official time and
attendance records (maintained on form PC-57).


19. That the timekeeper and supervisors use form PC-57 to track all leave earned and
taken, i.e., compensation time, vacation time, and sick leave.

Management’s Response: Concur.
Post’s Special Projects Assistant spent two months (January to February 2007) cleaning-
up and aligning PC-57s and timesheets going back several years. All PSCs and USDHs


Follow-up Audit Report: Peace Corps/Senegal                                            15
agreed to findings and signed PC-57s for 2006 and mid-year PC-57's for 2007 have all
been reviewed and signed, at the end of June 2007. . Post’s timekeeper will continue
tracking leave.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We found that the timekeeper was tracking leave earned and taken on the official time
and attendance records.


20. That supervisors perform the semiannual time and attendance audits as required
    by PCM section 742.

Management’s Response: Concur:
Post hired a Special Projects Assistant who spent two months (January and February
2007) cleaning-up and aligning PC-57s and timesheets going back several years. All
PSCs and USDHs reviewed and agreed to findings and signed PC-57s for 2006. Mid-year
PC-57's for 2007 were also reviewed and signed by all USDHs and PSCs and their
supervisors at the end of June. . Per PC guidelines, supervisors will perform the next T &
A Audit at the end of the fiscal year.

Completion Date: Completed.

OIG Verification: Recommendation closed.
We reviewed a sample of official time and attendance records and noted that both the
staff member and the supervisor signed the records on a semiannual and calendar year
basis.


INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES (ICASS)

21. That the post obtain waivers for all non-standard services received in accordance
    with Peace Corps policy.

Management’s Response: Concur.
Post has waivers on file for non-standard services received on a regular basis. Please
note that Post explained during the Audit that, at times, the Embassy can process
something for Post without Post’s knowledge (i.e. procurement for medical services) as
they do for other agencies. Once this is done, it is very difficult to back out that charge
as the vendor is paid months prior. Post only becomes aware of the charge at the ICASS
invoice review. The ICASS Coordinator at HQ indicated that waivers are not necessary
if the charge is a one-off expense and will not be used in the future. Post has reviewed
this with the Embassy but, on occasion, some services slip through into ICASS as this is
a 15+ Agency Post.

Completion Date: Completed.

Follow-up Audit Report: Peace Corps/Senegal                                              16
OIG Verification: Recommendation closed.
We discussed with the administrative officer the current ICASS services received by the
post. The post has used vouchering services and cashiering services, for which it
received waivers. The document approving the waivers, dated November 3, 2006 and
issued by the ICASS working group representative at Peace Corps headquarters, states:
“These waivers will continue to be effective FY2007 and thereafter until the U.S.
Embassy agrees that Peace Corps may withdraw from these services.”



                                     OTHER MATTERS

During the course of our follow-up audit, several other matters came to our attention.
These are presented below.

1. The cashier did not personally set the combination to the safe.

PCM section 760.5.2 states: “The cashier must personally set the combination to the
safe.”

We found, by inquiry of the cashier, that while the imprest fund safe’s combination was
changed in a timely manner, the regional security officer (RSO) rather than the cashier
changed it. The cashier told us that he had not been trained to change the combination.
Subsequent to our visit, the administrative officer sent us confirmation that the cashier
had been trained by the RSO on how to change the imprest fund safe’s combination.


2. The post performed most imprest fund verifications around the end of each month.

OFMH section 13.24.1 requires that imprest fund verifications be “performed at different
times each month.”

We noted that most verifications took place at or near the end of the month rather than at
different times during each month. Subsequent to our visit, the administrative officer
sent us two imprest fund verifications showing that they were performed at different
times of the month.

3.   The post did not execute a memorandum of agreement with the bank handling
     Volunteer allowances.

PCM section 221.6.1 requires that the post execute a memorandum of agreement (MOA)
with the bank handling Volunteer allowances, in the form specified in Attachment D to
the policy. The policy further states: “Approval by the Director of GAP [Global
Accounts Payable] is required if the Country Director is unable to obtain bank approval
of the substance of all the clauses in the Memorandum of Agreement.”



Follow-up Audit Report: Peace Corps/Senegal                                              17
The administrative officer told us that the bank was unwilling to sign a MOA using the
agency’s form and instead provided the post with its own form. He said that he was in
the process of reviewing the bank’s wording for compatibility with the agency’s
requirements and that he would contact the Director of Global Accounts Payable if an
acceptable MOA was unable to be executed.

Subsequent to our visit, the administrative officer forwarded to us a MOA waiver issued
by the Director, Office of Global Accounts Payable. The waiver stated that it was issued
“given that the bank has not responded to post’s request but with the understanding that
the bank has provided effective accounting for funds.”


4. Staff members did not always liquidate interim advances within three working days.

OFMH section 13.18.2 states: “The interim advance must be…liquidated (accounted for)
within three (3) working days.”

We noted, by review of prior cash reconciliation statements, that advances were not
always settled within three working days. Subsequent to our visit, the administrative
officer sent us several cash reconciliation statements showing that advances were being
settled in a timely manner.


5. The billings officer maintained and relied upon a manual billings log.

Overseas Financial Management Handbook (OFMH) section 7.2.1, number 4, states:
“Review the BOC Log (from ForPost) and the Billing Files. (The ForPost Outstanding
Collections report is an additional tool that may also be used.)”

The billings officer maintained a manual bills of collection (BOC) log and did not review
the ForPost BOC log when identifying and following-up collections. The administrative
officer told us that he monitored the status of billings using the ForPost outstanding
collections report.

Subsequent to our visit, the administrative officer confirmed to us that the billings officer
was now using the ForPost BOC log and that the administrative officer was reviewing the
log on a monthly basis. He also sent us the ForPost BOC log for May and June through
June 15, 2009.


6. The post had not determined if a minimum amount for personal phone charges to
   be billed should be set.

OFMH section 7.1.1 states: “agency policy authorizes CDs to establish written, post-
specific policy, applicable to all staff (including FP, FSN, and PSCs) which sets a



Follow-up Audit Report: Peace Corps/Senegal                                               18
threshold for billing based on a consideration of the costs incurred in the billing and
collection process – i.e., is it cost effective to bill for an amount of less than ‘x.’”

The post billed staff for personal phone calls regardless of the cost of the call. We noted
billings under the U.S. dollar equivalent of $1.

Subsequent to our visit, the administrative officer submitted to us a “Telephone Usage
Policy” dated June 2, 2009. It stated: “…it is not economical nor in the best interest of
the government [to] process bills of collection with regards to personal calls for small
amounts” and set a minimum monthly billing threshold of 4,000 CFAs (about $8).




Follow-up Audit Report: Peace Corps/Senegal                                                19
               OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in a follow-up audit is to verify the status of our previous audit
recommendations. Our conclusions are based on information from three sources: (1)
document and data analysis, (2) interviews, and (3) direct observation. Our audit follow-
up was conducted in accordance with the governmental auditing standards prescribed by
the Comptroller General of the United States. Our scope was limited to verification of
the status of previous audit recommendations in the “Final Report on the Audit of Peace
Corps/Senegal” (Report No. IG-07-18-A) issued in September 2007. At the end of our
follow-up audit, we briefed the acting country director and administrative officer. At
headquarters, we conducted a general briefing for regional staff.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps Manual, the Overseas Financial Management Handbook, and current Peace Corps
initiatives and policies.




Follow-up Audit Report: Peace Corps/Senegal                                             20
                 AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                   Senior auditor Steven Kaffen performed the follow-up
                                   audit.


OIG CONTACT                        If you wish to comment on the quality or usefulness of this
                                   report to help us strengthen our product, please e-mail
                                   Gerald P. Montoya, Assistant Inspector General for Audit,
                                   at gmontoya@peacecorps.gov, or call him at
                                   (202) 692-2907.


.




Follow-up Audit Report: Peace Corps/Senegal                                                 21
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
